                                                          NATIONAL SCIENCE FOUNDATION
                                                           OFFICE OF INSPECTOR GENERAL
                                                             OFFICE OF INVESTIGATIONS

                                                   CLOSEOUT MEMORANDUM

 Case Number: I97120061                                                                                 Page 1 of 1



                    This closeout memorandum is reconstructed from available case materials.

                 We received information from the Office of Audit that indicated potential misuse of funds
         and false statements related to cost sharing on the part of an institution being audited.1 We evaluated
         the information and referred the matter to the Department of Justice, which declined to prosecute
         based on the availability of administrative audit-resolution remedies. The institution returned
         $139,154 to NSF to resolve the audit.2

                    Accordingly, this case is closed with no further action taken.




         1
             California State University, Fullerton; OIG Audit 99-6-001, reviewing award CTS-9409109.
         2
             Returned to NSF on or about 5/9/2000.




NSF OIG Form 2 (11/02)
